CERTIFICATE OF COMPLIANCE

No.

In The
Supreme Court of the United States
Christopher R Granton,
Petitioner,
v.
Washington State Lottery Commission,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8,518 words according to the word counter on
Microsoft word, excluding the parts of the petition that are exempted by Supreme
Court Rule 33.1(d). Also my petition conforms to the type set using Century
Schoolbook 12 point type with 10 point footnotes. Rule 33.1(b).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on January 21, 2018.

Christophex-R Granton
Pro Se
5701 30th Ave. SE
Lacey Wa. 98503

